HHS/OIG - Audit,"Review of Medicare Inpatient Bad Debts at United Hospital Center, Clarksburg, West Virginia for Calendar Year 1999,"(A-03-01-00022)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Inpatient Bad Debts at United Hospital Center, Clarksburg, West Virginia for Calendar Year 1999," (A-03-01-00022)
July 30, 2002
Complete
Text of Report is available in PDF format (418 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if Medicare inpatient bad debts claimed by United Hospital Center (UHC) on
its cost report for calendar year (CY) 1999 met Medicare requirements. For CY 1999, the UHC claimed inpatient bad debts
of $511,421. Our audit found that UHC generally claimed inpatient bad debts on its CY 1999 cost report that met Medicare
reimbursement requirements. However, we noted some exceptions and are questioning $42,328 in bad debt claims.